WAIVER

Supreme Court, U.S.
FILED

OCT 2 3 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

T.R.C.

19-436
v.

State of Wisconsin
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
El Please enter my appearance as Counsel of Record for all respondents.
111 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

State of Wisconsin

El I am a member of the Bar of the Supreme Court of the United States.
[1] I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date.

October 14, 2019
Rebecca A Kiefer, Assistant District Attorney
11] Mrs.
0 Miss
[1] Ms.
.[11 Mr.
Milwaukee County District Attorney

(Type or print) Name

Firm

Address

10201 Watertown Plank Rd

City & State
Phone

Wauwatosa, WI

414-257-7686

Zip
Email

53226

Rebecca.Kiefer@da.wi.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Andrew Shaw

RECEIVED
NOV -5 2019
OFFICE OF THE CLE -1
,
SUPREME COURT.

